Report No. DODIG-2013-039              January 24, 2013




   Defense Advanced Research Projects Agency's Ethics
       Program Met Federal Government Standards
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
BAA                           Broad Agency Announcement
CFR                           Code of Federal Regulations
DARPA                         Defense Advanced Research Projects Agency
DAEO                          Designated Agency Ethics Official
DoDIG                         Department of Defense Inspector General
I2O                           Information Innovation Office
IPA                           Intergovernmental Personnel Act
OGC                           Office of General Counsel
POGO                          Project on Government Oversight
SOCO                          Standards of Conduct Office
U.S.C.                        United States Code
                                 INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CE NTER DRI VE 

                               A LEXANDRIA, V IRGINIA 22350-1500· 





                                                                          January 24, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DEFENSE ADVANCED RESEARCH
                 PROJECTS AGENCY

SUBJECT: 	 Defense Advanced Research Projects Agency ' s Ethics Program Met Federal
           Government Standards (Report No . DODIG-2013 -039)

We are providing this report for your information and use. We conducted this audit in
response to a letter from the Project on Government Oversight (POGO) dated
May 9, 2011 , and allegations to the Defense Hotline on August 17, 2011.

We determined that the Defense Advanced Research Projects Agency (DARPA) ethics
policies and program implementation were consistent with Federal Government conflict­
of-interest mitigation standards and that DARPA personnel were properly trained and
followed DARPA ethics policies. In addition, DARPA did not award BAE Systems
contracts as a result of undue influence from former BAE Systems employees in the
DARPA Information Innovation Office.

No written response to this report was required, and we are publishing this report in final
form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077). If you desire, we will provide a fmmal briefing on the
results.


                                            0~;£~
                                             GJ.faccr~fine L. Wicecarver
                                               Assistant Inspector General
                                               Acquisition and Contract Management
Report No. DODIG-2013-039 (Project No. D2012-D000AB-0119.000)                January 24, 2013

                 Results in Brief: Defense Advanced
                 Research Projects Agency’s Ethics Program
                 Met Federal Government Standards

What We Did                                              material developed each year by the DoD
Our audit objective was to determine whether             Standards of Conduct Office.
DARPA ethics policies and program
implementation were consistent with Federal              Finally, we determined that the program
Government conflict-of-interest mitigation               management and contract award process
standards and whether DARPA personnel were               participation of the DARPA employees who
properly trained and following their policies.           formerly worked for BAE Systems or its
                                                         subsidiary, AlphaTech (BAE/AlphaTech), did
In addition, we determined whether DARPA                 not create a conflict-of-interest between the two
awarded BAE contracts as a result of undue               entities. In addition, DARPA did not award
influence from former BAE Systems employees              BAE Systems contracts as a result of undue
in the DARPA Information Innovation Office.              influence from former BAE employees in
                                                         DARPA’s Information Innovation Office.
What We Found                                            Management Comments
The DARPA ethics policies and program
implementation were consistent with Federal              We do not require a written response to this
Government conflict-of-interest mitigation               report.
standards, and the DARPA personnel we
selected for review were properly trained and
followed DARPA policies. In the last 3 years,
DARPA officials issued standard ethics
guidance and operating procedures that
implemented ethics laws and regulations. The
only DARPA ethics rule change was to the
broad agency announcement process and the
recusal rules interpretation for employees
covered by the Intergovernmental Personnel
Act.

DARPA’s ethics program appropriately
mitigated the potential for conflicts-of-interest.
In addition, DARPA’s ethics training followed
Federal Government ethics rules and
regulations, and for its annual training, the
DARPA Deputy Designated Agency Ethics
Official (DAEO) used the ethics training



                                                     i
Report No. DODIG-2013-039 (Project No. D2012-D000AB-0119.000)        January 24, 2013

Recommendations Table

                  Management                        Recommendations Requiring Comment
Director, Defense Advanced Research Projects        None
Agency




                                               ii
Table of Contents
Introduction	                                                           1     


      Objectives                                                        1     

      Project on Government Oversight Letter                            1

      Allegations to the Defense Hotline                                2

      DARPA Background                                                  2

      DARPA Ethics Program                                              3

      Review of Internal Controls                                       3


Audit Responses to POGO’s May 9, 2011, Requests	                        4


      DARPA’s Interpretation of Ethics Policy                           4

      Conflict-of-Interest Mitigation                                   5

      Appropriateness of Conflict-of-Interest Mitigation Instruments    6

      DARPA Employees Received Ethics Training                          7

      Conclusion                                                        8     


POGO Defense Hotline Allegation on BAE Individuals 

and Audit Response                                                      9


      Compliance With Ethics Laws and Regulations                      10 

      Conflict-of-Interest Mitigation in Contract Awards               15 

      Conclusion                                                       16     


Appendices

      A. 	Scope and Methodology                                        17 

             Use of Computer-Processed Data                            17 

             Use of Technical Assistance                               18 

      B. Ethics Criteria 	                                             19 

Introduction
Objectives
Our objective was to determine whether Defense Advanced Research Projects Agency’s
(DARPA) ethics policies and program implementation were consistent with Federal
Government conflict-of-interest mitigation standards and whether DARPA personnel
were properly trained and following their policies. In addition, we determined whether
DARPA awarded BAE contracts as a result of undue influence from former BAE
employees in the DARPA Information Innovation Office. See Appendix A for scope and
methodology.

Project on Government Oversight Letter
We performed this audit in response to a letter from the Project on Government Oversight
(POGO) dated May 9, 2011, and allegations to the Defense Hotline on August 17, 2011,
concerning DARPA’s ethics policies and program implementation. The POGO letter
requested that the DoD Office of Inspector General (DoDIG) review the eight DARPA
contracting and ethics issues listed below.

   1.	 Determine the adequacy of DARPA’s selection, award, and administration of research projects.

   2.	 Describe any changes in the last 3 years in the interpretation of ethics rules, regulations, and laws
       by DARPA’s senior leadership, DARPA’s general counsel, or by the DoD Office of General
       Counsel, as they relate to mitigating conflicts of interest in hiring, and in the award of grants and
       contracts.

   3.	 Detail how conflicts of interest mitigation has been used at DARPA and by its contractors and
       grantees over the last four and a half years, including how often recusals were filed, waivers
       issued, and divestments made by DARPA employees, contractors and grantees in FY 2007,
       FY 2008, FY 2009, FY 2010, and the first half of FY 2011.

   4.	 Determine the appropriateness of the use of DARPA’s conflict-of-interest mitigation instruments
       and their effectiveness, given the facts presented by DARPA employees’, contractors’, and
       grantees’ personal and financial interests, particularly for employees at GS-15 or higher level.
       This must include an examination of confidential financial disclosure statements for ownership of
       stock or other financial or personal connections to firms with contracts or grants with DARPA.

   5.	 Determine whether DARPA has written ethics policies or related ethics training and if there is
       clear understanding of applicable ethics rules within DARPA.

   6.	 Determine whether current DARPA senior officials, including Dugan, were fully in compliance
       with the terms of their recusal or other conflict-of-interest mitigation agreement, including
       whether Dugan remained completely uninvolved with decision-making involving her company.

   7.	 Determine whether any DARPA employee dealing with RedXDefense knew that their director had
       ties to the company before there was reporting on the connection.




                                                    1

        8.	 Examine how DARPA Conflict-of-Interest policies compare to other DoD agencies, DoD
            Federally Funded Research and Development Centers (FFRDCs), or other agencies with
            similar missions and how policy differences may increase or decrease risk of conflicts.

This audit covered POGO requests 2, 3, 4, and 5.

Allegations to the Defense Hotline
This audit also included an allegation to the Defense Hotline dated August 17, 2011, that
DARPA’s Information Innovation Office (I2O) had created a revolving door and
conflict-of-interest with BAE Systems and a company BAE Systems acquired in 2004,
AlphaTech.1 The allegation stated that at least eight employees from BAE/AlphaTech
became program managers/leaders from 2002 through 2010 in the DARPA Information
Processing Technology Office/Information Exploitation Office, now I2O. These
program managers/leaders rotated between working at DARPA and then returning to
senior positions within BAE Systems. The allegation also noted that there appeared to be
bias in contract awards. Specifically, POGO alleged that BAE/AlphaTech was awarded a
disproportionate share of contracts between 2002 through 2010 because of a conflict-of­
interest.

DARPA Background
DoD Directive 5134.10, “Defense Advanced Research Projects Agency,”
February 17, 1995, identifies DARPA as the central research and development
organization of DoD. The agency functions under the authority of the Under Secretary of
Defense for Acquisition, Technology, and Logistics and the Assistant Secretary of
Defense for Research and Engineering Enterprise. The Agency’s budget was about $3
billion annually for FYs 2010, 2011, and 2012.

According to DARPA’s Strategic Plan, “Bridging the Gap Powered by Ideas,” February
2007, DARPA’s mission is to pursue imaginative and innovative research and
development efforts to maintain U.S. technological superiority over potential adversaries.
DARPA’s main tactic for executing its strategy is to constantly search for high-payoff
ideas and then sponsor projects that bridge the gap between fundamental discoveries and
the provision of new military capabilities.

DARPA’s mission implies one imperative for the Agency: radical innovation for
national security. DARPA’s business process mirrors this by bringing in expert
entrepreneurial program managers, empowering them, protecting them from red tape, and
quickly making decisions about starting, continuing, or stopping research projects.

To maintain an entrepreneurial atmosphere and the flow of new ideas, DARPA hires
program managers for 3- to 6-year tours as the best way to foster new ideas and bring in



1
  A revolving door exists when personnel move from the Government into the private sector and from the
private sector into the Government. Government ethics policy does not prohibit revolving doors; however,
they create an increased risk for conflicts-of-interest.

                                                   2

new people with fresh outlooks. Congress has granted DARPA authorities to assist the
Agency in carrying out its mission in accord with a flexible management philosophy.

DARPA Ethics Program
DARPA’s Ethics Program follows the Federal Government ethics rules and regulations.
See Appendix B for a list and discussion of the ethics criteria. The DoD General Counsel
is the Designated Agency Ethics Official (DAEO) for DoD and reports to the Secretary of
Defense. The DoD Standards of Conduct Office (SOCO) manages the DoD ethics
program and is responsible for maintaining the DoD 5500.07-R, “Joint Ethics
Regulation,” November 17, 2011, implementing guidance and training material.

DoD SOCO provides oversight of the DARPA ethics program. In accordance with the
Joint Ethics Regulation, DoD SOCO reviews the DARPA ethics program every 4 to
5 years to verify compliance with governing statutes and regulations. On October 30,
2008, DoD SOCO issued “DARPA’s 2008 Ethics Program Review,” which states that the
DARPA Office of General Counsel was knowledgeable and had a dedicated staff with a
well-managed ethics program and that major elements of the program, including public
and confidential financial disclosure reports and training, met or exceeded the statutory
and regulatory requirements.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. DARPA’s internal controls
over its ethics program were effective as they applied to the audit objectives.




                                           3

Audit Responses to POGO’s May 9,
2011, Requests
To answer the POGO requests, we nonstatistically sampled the ethics records of
40 DARPA Senior Executive Service and GS-15 employees from a universe of 204
employees as of March 2012.

DARPA’s Interpretation of Ethics Policy
The POGO letter requested that the DoDIG describe any changes in the last 3 years in the
interpretation of ethics rules, regulations, and laws by DARPA’s senior leadership,
DARPA’s general counsel, or the DoD Office of General Counsel (OGC), as they relate
to mitigating conflicts-of-interest in hiring and in awarding grants and contracts.2

Audit Response
In the last 3 years, DARPA officials issued standard ethics guidance and operating
procedures that implemented ethics laws and regulations. This guidance did not change
any existing policies; the guidance only implemented ethics laws and regulations. From
September 9, 2011, through February 12, 2012, DARPA OGC issued and subsequently
updated six standard operating procedures on counseling and advising, orientation
briefings, exit interviews/briefings, post-employment disclosures, restrictions, and
advisory opinions. Additional standard operating procedures covered maintenance of
ethics records, employee financial disclosure requirements, and staff responsibilities of
DARPA OGC. In addition, the officials maintained accurate ethics files.

The only DARPA ethics rule change was to the broad agency announcement (BAA)3
process and the recusal rules interpretation for Intergovernmental Personnel Act (IPA)
employees. The DARPA Deputy DAEO/GC requested that the DoD SOCO provide
DARPA officials with a legal opinion on the recusal rules. DARPA officials requested
guidance on the application of section 208, title 18, United States Code (18 U.S.C. § 208
[2012]), the criminal financial conflict-of-interest statute, and related requirements, to a
DARPA IPA employee participating in a BAA proposal review process that involves a
proposal from the sponsoring organization. On April 20, 2010, the DoD SOCO provided
DARPA with a legal opinion that expanded the interpretation of recusal rules for IPA
employees on temporary duty assignment in DARPA. The legal opinion reduced the
scope of potential recusals for IPA employees involved in managing DARPA projects.
Previously DARPA required IPA employees to recuse themselves from all work
involving their sponsoring institution. The April 20, 2010, SOCO legal opinion states
that IPA employees need only recuse themselves from acting on matters affecting their
sponsoring organizations, such as evaluating proposals or recommending funding


2
  The audit team reviewed the DARPA ethics program. It did not review specific grants or contracts that 

DARPA awarded. It reviewed DARPA employee participation in the broad agency announcement process, 

which could result in either a grant or contract award.

3
  DARPA officials primarily use a BAA process detailed in Federal Acquisition Regulation Part 35, 

“Research and Development Contracting,” to obtain proposals for basic and applied research. 


                                                   4

decisions on selected proposals. Additionally, IPA employees may not act as program
managers for programs having contracts or agreements with their sponsoring
organizations.

Conflict-of-Interest Mitigation
POGO requested that the DoDIG detail how conflict-of-interest mitigation has been used
at DARPA and by its contractors and grantees over the last 4½ years, including how
often recusals were filed, waivers issued, and divestments made by DARPA employees,
contractors, and grantees in FYs 2007 through 2010 and the first half of FY 2011.

Audit Response
DARPA’s ethics policies and program implementation were consistent with Federal
Government conflict-of-interest mitigation standards. DARPA personnel were properly
trained and followed applicable ethics laws and regulations. DARPA’s ethics program
personnel mitigated the potential for conflicts-of-interest. Specifically, the DARPA
Ethics Program Manager mitigated conflicts-of-interest from January 2010 through
March 20124 by:

        	 counseling DARPA managers and current and former employees on potential
           conflict-of-interest issues and potential remedial actions, such as recusals and
           authorizations, and

        	 providing ethics guidance and operating procedures that implemented current
           ethics laws and regulations.

In order to verify any potential conflicts-of-interest, we analyzed all the BAAs for that
corresponding period to determine how many of these announcements the 40 employees
in the sample managed.

We determined that 13 of the 40 sampled employees managed 18 BAAs. We reviewed
14 of the 18 BAAs5 and determined that the programs followed the appropriate guidance
and no conflicts-of-interest existed in those contract actions. DARPA’s policy puts the
responsibility on employees to disclose personal and financial interests and seek guidance
on potential conflict-of-interest problems on the employee. We reviewed 53 mitigation
instruments, including recusals and authorizations, on file for these 40 employees. The
details on the mitigation instruments follow.




4
  Although DARPA officials manage their budget and contracts in fiscal years, they manage DARPA ethics 

files and training in calendar years. 

5
  DARPA officials had not completed the four remaining BAAs at the time of our audit.


                                                  5

Appropriateness of DARPA Conflict-of-Interest
Mitigation Instruments
POGO also requested that DoDIG determine the appropriateness of the use of DARPA’s
conflict-of-interest mitigation instruments and their effectiveness, given the facts
presented by DARPA employees’, contractors’, and grantees’ personal and financial
interests, particularly for employees at GS-15 or higher level. Specifically, POGO
requested that DoDIG examine confidential financial disclosure statements for ownership
of stock or other financial or personal connections to firms with contracts or grants with
DARPA.

Audit Response
DARPA’s ethics policies and program implementation were consistent with Federal
Government conflict-of-interest mitigation standards and followed ethics laws and
regulations. DARPA’s ethics program appropriately mitigated the potential for a
conflict-of-interest.

We examined financial disclosure reports for the 40 sampled employees. All
40 employees completed Public or Confidential Financial Disclosure reports (Forms
SF-278 or OGE 450) from January 2010 through March 2012.

The mitigation instruments included Notices of Disqualification (a general recusal),
Disqualifications for Seeking Employment, Agency Designee Determinations (the
employee’s supervisor determines whether an appearance of a conflict-of-interest exists
for an employee), Post-employment Ethics Letters, and a withdrawal. Table 1 lists the
53 mitigation instruments filed.

                         Table 1. Instruments for Mitigating 

                                 Conflicts-of-Interest 

                 Mitigation Instrument                     Number
                 Notices of Disqualification                   30
                 Disqualifications for Seeking Employment       9
                 Agency Designee Determinations                 9
                 Post-employment Ethics Letter                  4
                 Withdrawal                                     1
                   Total                                       53

DARPA employees filed the 30 notices of disqualification and the 9 disqualifications for
seeking employment when the employees chose to remove themselves from participating
substantially with companies with which the employees had a conflict. The notices of
disqualification were filed for financial conflicts-of-interest. The disqualifications for
seeking employment were filed solely when DARPA employees sought a job with other
companies. These two types of mitigation instruments represented the majority of the
53 mitigation instruments we reviewed.



                                            6

Each of the agency designee determinations were based on a supervisory review of the
employees’ financial disclosure and coordinated with the DARPA OGC. Four agency
designee determinations stated that even though there was an appearance of a conflict-of­
interest, the Government’s interest in the employee’s participation outweighed any
concerns that a reasonable person might question the Government’s integrity. The other
five agency designee determinations disqualified the employee from participating on that
BAA and designated replacements.

The four post-employment ethics letters provided opinions from DARPA OGC on those
companies with which employees should not interact after they leave DARPA. These
advisory opinions provide information on the Procurement Integrity Act and
18 U.S.C. § 207 (2012) and whether the ban is for a year, 2 years, or a lifetime.

The one withdrawal established a specific time frame the employee could not work with
prohibited companies. Specifically, the employee filed two disqualifications for seeking
employment in February 2012 and withdrew the disqualifications in March 2012. If the
employee worked on a BAA or any project pertaining to the companies in the
disqualifications from February to March 2012, then there would have been a conflict-of­
interest. The employee could have worked with the companies before or after that time
frame if the employee did not have a substantial personal or financial conflict. We
determined that the employee did not work with the prohibited companies during the
specified time frame.

DARPA officials did not direct that any of the 40 sampled employees divest themselves
as a result of a potential conflict-of-interest. The DARPA OGC stated in cases where an
actual conflict-of-interest existed, waivers were almost never granted, and the DARPA
OGC could not recall processing a waiver for a DARPA employee. DARPA must
coordinate waivers with the DoD SOCO and the DoD SOCO must approve each waiver.
In 40 sampled cases, DARPA officials undertook a mitigation process that usually
included either a voluntary divestiture process or the employee self-disqualifying from
personally and substantially participating in actions dealing with the organization or
person where an actual conflict-of-interest existed. DARPA OGC maintained a standard
that it was up to the informed employee to disclose personal and financial interests and
seek guidance on potential conflicts-of-interest.

DARPA Employees Received Ethics Training
POGO requested whether DARPA had written ethics policies and provided ethics
training and whether DARPA employees understood applicable ethics rules.

Audit Response
DARPA’s ethics training follows the Federal Government’s ethics rules and regulations,
and the DARPA Deputy DAEO/GC used the ethics training material developed each year
by DoD SOCO for its annual training. DARPA Deputy DAEO/GC provided new
employee and annual ethics training for all DARPA employees. We determined that



                                            7

39 of the 40 sampled employees properly completed the required annual or new
employee ethics training.6

DARPA begins ethics training between September and October each year and completes
the training by December 31. The DARPA Deputy DAEO/GC also provides ethics
training to all new employees at the beginning of their employment, and the ethics
program manager conducts one-on-one ethics training with each new employee.

Conclusion
DARPA’s ethics policies and program implementation were consistent with Federal
Government conflict-of-interest mitigation standards, and DARPA personnel were
properly trained and followed their policies.




6
    The 40th employee left DARPA on June 25, 2010, despite being listed as a 2012 employee.

                                                     8

POGO Defense Hotline Allegation on BAE
Individuals and Audit Response
On August 17, 2011, POGO submitted a Defense Hotline allegation that DARPA’s I2O
had created a revolving door and conflict-of-interest with BAE/AlphaTech. The
allegation stated that at least eight employees from BAE/AlphaTech became program
managers/leaders or a consultant from 2002 through 2010 for the DARPA I2O. These
program managers/leaders/consultant rotated between working at DARPA and then
returning to senior positions within BAE.

The allegation also noted that there appeared to be bias in contract awards. Specifically,
POGO alleged a conflict-of-interest because BAE/AlphaTech was awarded a
disproportionate share of contracts from 2002 through 2010.

Audit Response
We determined that the program management and contract award process participation of
the seven DARPA employees who formerly worked for BAE/AlphaTech did not create a
conflict-of-interest between the two entities. One individual was not a Government
employee, but a DARPA consultant. DARPA personnel were properly trained, followed
ethics laws and regulations, and mitigated conflicts-of-interest in program management
and contract award decisions. As a result, in the DARPA-awarded BAE contracts, there
were no apparent conflicts-of-interest or undue influence from former BAE employees
assigned to DARPA’s I2O. As we found no indication of bias in contract award, we did
not evaluate whether BAE received a disproportionate share of awards. The DARPA
ethics personnel, DARPA contracting officers, and I2O managers implemented
Government ethics safeguards to make sure that DARPA employees were properly
trained, followed ethics laws and regulations, and mitigated conflicts-of-interest in
program management and contract award decisions.

DARPA personnel routinely rotate between the private and public sectors. DARPA
recruits and hires individuals to fill specific innovational research needs for limited time
periods (generally 3 to 6 years), then the employee returns to private industry. DARPA
I2O employed seven of the eight individuals. The eighth individual was not a
Government employee but a Scientific, Engineering, and Technical Assistance contractor
working as an I2O subject-matter expert. Seven of the eight individuals previously
worked for BAE or AlphaTech and two of the eight went to work for BAE after working
for DARPA. We used LinkedIn, a professional network on the Internet, and an education
site to determine current employment, but did not validate this information. Table 2
shows the employment history of the eight named individuals as it relates to their
employment at DARPA and BAE/AlphaTech.




                                             9

                 Table 2. Former Industry Employees Working for 

                   DARPA I2O From FY 2002 Through FY 2010

                                             1 Year Prior
                              Prior Ties to   to Working    Current
              Individual       Contractor    for DARPA Employer
                  B1              BAE            BAE        DARPA
                  B2              BAE            BAE          Other
                  B3         AphaTech/BAE        BAE          Other
                  B4           AlphaTech         Other        Other
                  B5           AlphaTech         Other        Other
                  B6           AlphaTech       AlphaTech      BAE
                  B7              Other          Other        BAE
                  B8         AlphaTech/BAE        N/A          N/A

As employees of DARPA, a DoD agency within the Executive branch of the Federal
Government, the seven individuals were required to comply with the Standards of Ethical
Conduct for employees of the Executive Branch as codified in Title 5, Code of Federal
Regulations (CFR), “Administrative Personnel,” and with Title 18 U.S.C.

Compliance With Ethics Laws and Regulations
The DARPA ethics personnel and I2O managers implemented ethics safeguards to make
sure DARPA personnel followed ethics laws and regulations. Specifically, DARPA
ethics counselors and I2O managers provided ethics advice, ethics training, and
monitored and mitigated conflicts-of-interest for DARPA employees.

Individual Ethics Requirements
We reviewed the ethics files of the seven DARPA Government employees to determine
whether they met Government ethics requirements. DARPA ethics personnel provided
the seven employees with ethics advice and training and documented this information in
DARPA ethics files. DARPA ethics personnel made sure that the seven employees
completed annual financial disclosure reports as required and mitigated conflicts-of­
interest with authorizations and recusals when necessary. In addition, DARPA provided
employees with post-Government advisory opinions explaining their individual post-
employment restrictions. Table 3 shows the status of the seven Government employees’
ethics requirements and demonstrates that DARPA ethics counselors made sure that
DARPA employees were aware of and followed ethics rules.




                                          10 

                 Table 3. DARPA Ethics Services Provided to Former 

                            BAE/AlphaTech Employees

                                      Service Provided
                                                Authorizations Recusals  Post-
             Ethics  Ethics  Financial            Related to   Related Employment
  Individual Advice Training Disclosure             BAE        to BAE   Opinion
      B1      Yes     Yes       Yes                  Yes         N/A      N/A
      B2      Yes     Yes       Yes                  Yes         N/A      Yes
      B3      Yes     Yes       Yes                  Yes         N/A      Yes
      B4      Yes     Yes       Yes                  N/A         N/A      Yes
      B5      Yes     Yes       Yes                  N/A         Yes      Yes
      B6      Yes     Yes       Yes                  N/A         Yes      Yes
      B7      Yes     Yes       N/A                  N/A         Yes      Yes
  N/A = Not Applicable

Ethics Advice
DARPA ethics counselors provided the seven employees with ethics advice and
guidance. Executive branch agencies are required by 5 CFR § 2634.607 (b) (2012) to
offer advice and guidance in complying with ethics requirements. Though not required,
documentation shows DARPA ethics counselors proactively met with six of the seven
employees before their employment. This allowed both DARPA and the potential
employees to make an informed employment decision based on conflict-of-interest issues
and mitigation requirements. All seven employees interacted with the ethics counselors
throughout their employment at DARPA. The DARPA ethics counselors provided
advice and guidance on ethics rules and regulations for conflicts-of-interest, conflict-of­
interest mitigation, and post-employment. These ethics areas were also discussed during
ethics training.

Ethics Training
DARPA ethics counselors provided ethics training to the seven Government employees.
Executive branch agencies are required by 5 CFR § 2638.703-705 (2012) to educate
every new employee on ethics laws and regulations within 90 days of their entrance to
Government service and to provide annual ethics training to employees who file Public
and Confidential Financial Disclosure Reports. Because of the records retention policies,
we could only verify that new entrant ethics training was provided to the three employees
hired after 2006.

All seven employees completed ethics training annually; however, DARPA was unable to
provide documentation for 1 year of annual training on one employee. DARPA’s ethics
training follows the Federal Government ethics rules and regulations, and the DARPA
Deputy DAEO/GC used the ethics training material developed each calendar year by
DoD SOCO. DARPA employees were properly trained on ethics requirements and
conflict-of-interest mitigation.




                                            11 

Financial Disclosure
DARPA ethics counselors used employee financial disclosure reports to identify potential
conflicts-of-interest and implement appropriate mitigation efforts.

Financial Disclosure Reports
DARPA ethics counselors and I2O managers received financial disclosure reports from
six of the seven employees. The executive branch agencies are required by
5 CFR § 2634 (2012) to establish public financial disclosure requirements for senior
employees and a system of confidential financial disclosure for mid-level employees of
the executive branch. Because of the National Archives General Records Schedule
records retention policy, DARPA is only required to retain Financial Disclosure Reports
for 6 years. We reviewed DARPA employees’ financial disclosure reports for 2006
through 2010. Employees required to complete the financial disclosure reports had to
complete an initial disclosure report within 30 days of employment, an annual report by
February 15 of the succeeding year for confidential filers and May 15 for public filers,
and a termination report within 30 days of termination.

One employee left DARPA in 2005. Three other employees were hired before 2006. We
reviewed new entrant financial disclosure reports for the three DARPA employees hired
after 2006. Two were filed within 30 days; one was completed 12 days late. All
six employees filed annual financial disclosure reports during their employment term, and
the five employees who left DARPA employment filed termination financial disclosure
reports within 30 days of termination.

DARPA ethics counselors were unable to locate one employee’s 2007 financial
disclosure report. We reviewed the six employees’ financial statements filed during their
employment terms and found no reported financial conflicts-of-interest with
BAE/AlphaTech. We identified that five of the six had 401(k) plans with
BAE/AlphaTech. This was not a conflict-of-interest because the money was in mutual
funds, managed by equity firms, and BAE/AlphaTech no longer contributed to the plans.

Agency Designee Determinations, Divestitures, and Recusals
DARPA managers, with the assistance of ethics personnel, properly justified and
documented four authorizations that involved program management and BAE for
three employees, one divestiture involving AlphaTech, and four recusals for
three employees for employment talks with BAE.

Several ethics provisions concern conflicting financial interests and the requirement that
employees act impartially. For example, 18 U.S.C. § 208 (2012) requires an employee to
be recused from participation if it would have a direct and predictable effect on the
employee’s own financial interests or on certain financial interests that are treated as the
employee’s own, such as those of the employee’s spouse or a prospective employer. In
addition, 5 CFR § 2635.502 (2012) requires employees to consider whether their
impartiality would be questioned. If employees conclude that their participation would
cause a reasonable person to question their impartiality, they should not participate unless
given an authorization. Government employees may not work on issues involving a

                                            12 

former employer for 1 year from the last date of employment, unless given an
authorization.

Only three ways of handling a financial conflict-of-interest under 18 U.S.C. § 208 (2012)
and 5 CFR § 2635.502 (2012) were applicable.

      An agency designee may grant an individual authorization to the employee.
      The employee may divest the conflicting interest.
      The employee may be recused from participation.

DARPA ethics personnel reviewed the appearances of a conflict-of-interest on
four agency designee determinations submitted and determined pursuant to
5 CFR § 2635.502(d) (2012) that it was in the Government’s best interest to allow the
employees’ participation. DARPA managers then made four authorizations to three
employees involving BAE, not because of financial conflicts-of-interest, but because
their impartiality could be questioned. Three of the four authorizations involved
participation by the employee with BAE before the 1-year ban from participation
involving a former employer. The other one involved a family member with a consulting
job at BAE.

One employee was in the process of divesting AlphaTech assets when employment
began. However, because of DARPA’s records retention policy, the financial disclosure
reports for that time period were unavailable for our review.

Three employees filed recusals near the end of their DARPA employment as they were
having employment discussions with BAE and other potential employers. Subsequently,
two of those three employees accepted post-employment positions with BAE.

Post-Employment
DARPA ethics personnel made sure that employees were aware of post-employment
rules and restrictions while employed at DARPA. DARPA ethics personnel also
provided employees with post-employment opinions based on their work at DARPA.

Post-Employment Notification and Certification
Five of the seven employees filed public financial disclosure reports and certified that
they were aware of post-employment restrictions and had not violated those restrictions.
DoD 5500.07-R, “Joint Ethics Regulation,” November 17, 2011, requires employees who
file public financial disclosure reports to certify annually that they are aware of the post-
employment restrictions and that they have not violated those restrictions. Because of the
records retention policy, we do not know whether the employee who left in 2005 was
required to file a public financial disclosure report or complete a post-employment
certification. One employee was required to file a confidential financial disclosure report
and, therefore, was not required to complete a post-employment certification.




                                             13 

Post-Employment Opinions
DARPA ethics counselors provided post-employment opinions on six of the seven
employees. DARPA still employed one of them. Public Law 110-181, “The National
Defense Authorization Act for FY 2008,” Section 847, “Requirements for Senior
Department of Defense Officials Seeking Employment With Defense Contractors,”
requires a selected category of senior DoD acquisition officials to seek a post-
employment DoD ethics opinion letter before accepting compensation from a DoD
contractor within 2 years of Government employment termination. The Defense Federal
Acquisition Regulation Supplement 203.171 implements Section 847. DARPA ethics
counselors provided post-employment opinions to six employees as they considered
outside offers before or shortly after leaving DARPA. One employee who left in 2006,
before the DoD requirement, requested a post-employment opinion in 2008. In addition
two employees asked DARPA ethics counselors for additional advice on post-
employment.

The post-employment opinions provided the employees with post-employment rules and
restrictions applicable to the employees based on their work at DARPA. These rules and
restrictions are laid out in 18 U.S.C. § 207 and 41 U.S.C. §§ 2101-2107.7 Additionally,
41 U.S.C. §§ 2101-2107 prohibits employees who are involved in the procurements or
the administration of contracts valued at $10 million or greater from working for the
contractor for a period of 1 year following their involvement. However, an exception
under 41 U.S.C. §§ 2104(b) states that an employee may accept compensation from any
division or affiliate of that company that does not produce the same or similar products or
services.

Further, 18 U.S.C. § 207(a)(1) has a lifetime ban on attempting to influence the
Government on behalf of someone regarding an issue the employee worked on personally
and substantially while employed by the Government. Finally, 18 U.S C. § 207(a)(2)
provides that if a particular issue was under an individual’s official responsibility during
the last year of Government service, even if the individual did not personally participate
in it, he or she is barred from making representational contacts about that issue for
2 years.

DARPA Ethics personnel made sure that DARPA employees were aware of ethics rules
and regulations for post-employment and when conducting official duties. The
employees’ post-employment opinions were written broadly and encompass rules and
restrictions applicable to the employees based on their work at DARPA. As only two
employees identified BAE as their new or prospective employer, BAE is only one of the
identified contractors with whom the employees had post-employment restrictions.
DARPA Ethics personnel made sure that DARPA employees were aware of ethics rules
and regulations for post-employment and when conducting official duties.




7
    Previously codified at 41 U.S C. § 423.

                                              14 

Conflict-of-Interest Mitigation in Contract Awards
DARPA contracting officers, ethics personnel, and I2O managers implemented ethics
safeguards to make sure DARPA personnel mitigated conflicts-of-interest and
impartiality in contract award decisions. DARPA Contract Management Office
employees included requirements within their scientific review process to make sure
proposal evaluations were impartial, equitable, and comprehensive.

DARPA officials used DARPA Instruction 20, “Soliciting, Evaluating, and Selecting
Proposals Under Broad Agency Announcements and Research Announcements,”
February 10, 2011, and DARPA Instruction 74, “Scientific Review of Proposals,”
March 20, 2009, to evaluate and select awardees for BAAs to fulfill requirements for
scientific research. All scientific reviews were based on the evaluation criteria detailed in
the published BAA. The key individuals involved in the Scientific Review Process
included the program manager, reviewers, subject-matter experts, and the scientific
review official. The proposal evaluation criteria included requirements to mitigate
conflicts-of-interest in contract award decisions, including:

      a list of the review panel members,
      a conflict-of-interest briefing,
      signed conflict-of-interest self-certifications,
      a required number of reviewers and written evaluation reports, and
      a program manager decision package and scientific review official approval.
We reviewed 12 BAAs to determine whether the scientific review teams met the
acquisition conflict-of-interest requirements. We reviewed proposal evaluations from
FYs 2005 to 2010 in which BAE provided a proposal and at least one of the eight
individuals was a participant. Seven of the eight individuals participated in the scientific
review process as a subject-matter expert, reviewer, program manager, or scientific
review official on at least one of the 12 BAAs reviewed. DARPA did not provide BAA
proposal evaluation participation documentation for the individual who left DARPA in
2005. The review showed DARPA officials complied with the acquisition conflict-of­
interest requirements.

Table 4 shows the 12 BAAs reviewed and their compliance with the acquisition conflict­
of-interest requirements.




                                             15 

       Table 4. Compliance With Acquisition Conflict-of-Interest Requirements
                                                              Required
                                                             Number of
                 List of     Conflict                        Reviewers                Number
                 Review        -of-        Conflict-of-         and         Decisions    of
     BAA         Panel       Interest     Interest Self-     Evaluation       and     Contracts
    Number      Members      Briefing     Certification       Reports       Approval Awarded
     05-04        Yes          N/A             Yes1             Yes           Yes        7
       05-44       Yes          N/A             Yes              Yes          Yes        6
       05-45       Yes          N/A             No               Yes2           Yes           26
       07-13       Yes          N/A             Yes              Yes            Yes            5
                                                     1                 2                      22
       07-15       Yes          N/A             Yes              Yes            Yes
       08-20       Yes          N/A             Yes              Yes            Yes            5
       09-41       No            No             Yes              Yes            Yes            1
       10-02       Yes          Yes             Yes              Yes            Yes            2
       10-07       Yes          Yes             Yes              Yes            Yes            4
       10-49       Yes          Yes             Yes              Yes            Yes            5
       10-50       Yes          Yes             Yes              Yes            Yes            7
       10-79       Yes          Yes             Yes              Yes            Yes            2

   N/A = Not Applicable
   1
     All required review panel members except the program manager signed a conflict-of-interest self-

   certification.

   2
     Officewide BAAs are required to keep only summary reports, not individual review reports.


The DARPA I2O personnel generally complied with the requirements that mitigated
conflicts-of-interest in contract award decisions. They made sure that review team
members were identified, team members were aware of conflict-of-interest rules, and
conflicts-of-interest were mitigated. Ten of the 12 BAA scientific review teams included
experts from DARPA as well as from at least one other DoD entity, such as the Air Force
Research Lab; Naval Research Lab; Communications-Electronics Research,
Development, and Engineering Center; or the National Geospatial-Intelligence Agency.
Program managers reviewed the evaluation reports and made recommendations to the
scientific review official, who reviewed and approved the recommendations. We
determined that DARPA’s compliance with the acquisition conflict-of-interest
requirements mitigated conflicts-of-interest in award decisions.

Conclusion
DARPA personnel were properly trained, followed ethics laws and regulations, and
mitigated conflicts-of-interest in program management and contract award decisions. We
did not find any evidence that DARPA awarded BAE contracts as a result of undue
influence from the seven former BAE employees in DARPA’s I2O.


                                                  16 

Appendix A. Scope and Methodology
We conducted this performance audit from February 2012 through December 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our conclusions in response to POGO’s requests and
allegations based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our conclusions based on our audit objectives.

This audit covered POGO requests 2, 3, 4, and 5. DoDIG Audit on DARPA Contracting
(Project No. D2013-D000CG-0055.000) will address POGO request no. 1. Office of the
Deputy IG for Administrative Investigations investigated POGO request nos. 6 and 7.
We did not compare DARPA’s ethics program to other DoD entities (POGO request
no. 8.) because we determined that it would not provide POGO with the risks of conflicts
because each DoD Component needs to evaluate its own risks.

We nonstatistically sampled the ethics records of 40 DARPA Senior Executive Service
and GS-15 employees from a universe of 204 employees as of March 2012 using a
random number generator.

We reviewed the ethic records for the sampled DARPA personnel and the eight
individuals in the POGO Defense Hotline Allegation on BAE Individuals dated from
October 2001 through December 2012. The ethics records included preemployment
correspondence, ethics training records, authorizations, recusals, post-employment
opinions, DARPAs ethics annual training plans and training material, and e-mail
correspondence. We reviewed laws and regulations in the United States Code, Public
Laws, Executive Orders, DoD Joint Ethics Regulations, and DARPA’s implementing
guidance for criteria specific to our review of the DARPA ethics program. We also
reviewed DARPA employee participation in the broad agency announcement process,
which could result in either a grant or contract award. However, we did not review
specific grants or contracts that DARPA awarded.

We interviewed DoD SOCO ethics personnel and DARPA contracting, program
management, and ethics personnel.

Use of Computer-Processed Data
We relied on computer-processed data from the Financial Disclosure Management
System, After Government Employment Advice Repository, and DARPA Management
Support System to establish the initial universe of employees to perform the nonstatistical
sample selection of DARPA employees for this audit. We also used this data to obtain
employees’ ethics documentation, such as ethics training records, financial disclosure
documentation, conflict-of-interest mitigation documentation, and an inventory of broad
agency announcements from January 1, 2010, to March 31, 2011.

To assess their accuracy and appropriateness, we verified the computer-processed data
from the Financial Disclosure Management System, After Government Employment

                                            17 

Advice Repository, and DARPA Management Support System against official DARPA
records. We determined that the data obtained were sufficiently reliable to accomplish
our audit objective.

Use of Technical Assistance
We held discussions with personnel from the DoD Office of Inspector General,
Quantitative Methods Division. We selected a nonstatistical sample of 40 DARPA
Senior Executive Service and GS-15 employees from a universe of 204 employees as of
March 2012 and then reviewed DARPA employees’ ethics files for compliance with
ethics laws and regulations. In addition, we consulted with the OIG Office of General
Counsel to identify applicable ethics laws and regulations and the interpretation of the
ethics laws and regulations.

Prior Coverage
No prior coverage has been conducted on the DARPA ethics program during the last
5 years.




                                           18 

Appendix B. Ethics Criteria
Congress enacted conflict-of-interest statutes, the President issued executive orders for
executive branch employees, and the Office of Government Ethics (OGE) issued the
implementing regulations. In addition, DoD issued supplemental ethics regulations that
apply to DoD employees. This appendix includes statutes, executive orders, and
regulations used during the audit.

Code of Federal Regulations (CFR), Title 5, “Administrative Personnel,”
Chapter 26, “Office of Government Ethics, Subchapter B – Government Ethics,”
and Chapter 36, “Department of Defense,” current as of January 1, 2012

OGE publishes its own chapter of regulations each year in 5 CFR Chapter XVI.
Chapter XVI is divided into two subchapters. The regulations in subchapter A (parts
2600-2610) concern the internal organization and operation of OGE. The regulations in
subchapter B (parts 2634-2641) are broader in scope and are central to the executive
branch ethics program. In particular, the OGE regulation at 5 CFR part 2635 contains
standards that govern the conduct of all executive branch employees. The other
regulations in subchapter B contain guidance concerning the interpretation of certain civil
and criminal conflict-of-interest laws, implement statutory provisions relating to financial
disclosure, and describe responsibilities relating to the administration of the executive
branch ethics program.

The CFR sections applicable to this audit are:

   • 	 5 CFR Part 2634, “Executive Branch Financial Disclosure, Qualified Trusts, and
       Certificates of Divesture”
   • 	 5 CFR Part 2635, “Standards of Ethical Conduct for Employees of the Executive
       Branch”
   • 	 5 CFR Part 2636, “Limitations on Outside Earned Income, Employment, and
       Affiliations for Certain Non-Career Employees”
   • 	 5 CFR Part 2638, “Office of Government Ethics and Executive Agency Ethics
       Program Responsibilities”
   • 	 5 CFR Part 2640, “Interpretation, Exemptions, and Waiver Guidance Concerning
       18 U.S.C. 208 (Acts Affecting a Personal Financial Interest)”
   • 	 5 CFR Part 2641, “Post-employment Conflict of Interest Restrictions”
   • 	 5 CFR Part 3601, “Supplemental Standards of Ethical Conduct for Employees of
       the Department of Defense”

United States Code, Title 18, Chapter 11, “Bribery, Graft, and Conflicts of Interest”

   • 	 18 U.S.C. 11 § 201, “Bribery and Gratuities.” Prohibits public officials from
       accepting bribes or gratuities to influence their Government actions.
   • 	 18 U.S.C. 11 § 203, “Representation of Others for Compensation.” Prohibits
       compensation for representational activities involving certain matters in which the
       United States is a party or has a direct and substantial interest. Significantly, the


                                            19 

        prohibition applies to compensation in exchange for the representational activities
        of either the employee or another individual.
   •	   18 U.S.C. 11 § 205, “Representation of Others With or Without Compensation.”
        Prohibits an employee from certain involvement in a claim against the United
        States or representing another before the Government in matters in which the
        United States is a party or has a direct and substantial interest.
   •	   18 U.S.C. 11 § 207, “Post-employment Restrictions.” Imposes restrictions on an
        employee’s activities after leaving the Government. Most restrictions are limited
        to communications with or appearances before the Government on behalf of
        another, but some restrictions cover behind-the-scenes activities.
   •	   18 U.S.C. 11 § 208, “:Conflicting Financial Interests.” Prohibits employees from
        participating in certain Government matters affecting their own financial interests
        or the interests of certain persons with whom they have ties outside the
        Government.
   •	   18 U.S.C. 11 § 209, “Supplementation of Salary.” Prohibits employees from
        being paid by someone other than the United States for doing their official
        Government duties.

United States Code, Title 5 App., Title I – “Financial Disclosure Requirements of
Federal Personnel,” §§ 101-111

These sections establish the public financial disclosure requirements for senior employees
of the executive branch as well as particular employees of the legislative and judicial
branches. The statute also provides the authority for a system of confidential financial
disclosure for mid-level employees of the executive branch.

United States Code, Title 41, Chapter 21, “Restrictions on Obtaining and Certain
Disclosing Information,” §§ 2101-2107

These subsections establish requirements and prohibitions for procurement officials and
former Government officials regarding post-government employment. Specifically,
Section 2103 requires a Government official, participating personally and substantially in
the procurement of a contract over $10 million, to report any contact with an offeror or
contractor regarding possible post-government employment to their agency ethics
official. In addition, Section 2104 prohibits former employees from accepting
compensation, directly or indirectly, from a contractor for a period of one year if they
served in any of seven positions, or made any of seven types of decisions, on a contract
award in excess of $10 million to that contractor.

Public Law 95-521, “Ethics in Government Act of 1978,” October 26, 1978

Passed by the 95th Congress to establish certain Federal agencies, effect certain
reorganizations of the Federal Government, implement certain reforms in the operation of
the Federal Government to preserve and promote the integrity of public officials and
institutions, and for other purposes. The section is applicable to the Title II, “Executive
Personnel Financial Disclosure Requirements.”

                                            20 

Executive Order 12731, “Principles of Ethical Conduct for Government Officers
and Employees,” October 17, 1990

In 1989, the President’s Commission on Federal Ethics Law Reform recommended that
individual agency standards of conduct be replaced with a single regulation applicable to
all employees of the executive branch. To address some of those recommendations,
President Bush signed Executive Order 12731 on October 17, 1990.

The new executive branch-wide standards of conduct regulation, the “Standards of
Ethical Conduct for Employees of the Executive Branch,” became effective in 1993 and
codified in 5 CFR part 2635. These standards:

   • 	 set out 14 basic principles of ethical conduct for employees of the executive
       branch;
   • 	 direct OGE to establish a single, comprehensive, and clear set of executive branch
       standards of conduct;
   • 	 direct OGE to promulgate regulations interpreting certain conflict-of-interest
       laws;
   • 	 direct OGE to establish a system of confidential financial disclosure by executive
       branch employees to complement the public financial disclosure system;
   • 	 authorize agencies to supplement the comprehensive executive branch-wide
       regulations by publishing agency supplemental regulations;
   • 	 direct agencies to coordinate with OGE in developing annual training plans;
   • 	 direct agencies to consult formally or informally with OGE, where practicable,
       before granting any individual waiver under 18 U.S.C. § 208;
   • 	 direct agencies to ensure that the resources of the Designated Agency Ethics
       Official are sufficient to ensure the effectiveness of the agency ethics program;
   • 	 delegate the authority of the President to make certain determinations relating to
       the applicability of certain conflict-of-interest laws; and
   • 	 promulgate an outside earned income ban applicable to certain political 

       appointees. 


DoD Directive 5500.07, “Standards of Conduct,” November 29, 2007

States that DoD agencies must administer and maintain a comprehensive agency ethics
program, ensure that all organizations within their jurisdiction administer and maintain an
ethics program, and ensure compliance with additional requirements and regulations.
Additionally, DoD personnel must perform their official duties lawfully and comply with
the highest ethical standards.

DoD 5500.07-R, “Joint Ethics Regulation,” including changes, November 17, 2011

Provides a single source of standards of ethical conduct and ethics guidance, including
direction in the areas of financial and employment disclosure systems, post-employment



                                            21 

rules, enforcement, and training. Specifically, the sections applicable to the audit are as
follows:

   •   Chapter 2, “Standards of Ethical Conduct”
   •   Chapter 5, “Conflicts of Interest
   •   Chapter 7, “Financial and Employment Disclosure”
   •   Chapter 8, “Seeking Other Employment”
   •   Chapter 11, “Training”
   •   Chapter 12, “Ethical Conduct”




                                             22 

